                                                NATIONAL SCIENCE FOUNDATION
                                                'OFFICE OF INSPECTOR GENERAL
                                                   OFFICE OF INVESTIGATIONS

                                            CLOSEOUT MEMORANDUM

Case Number: A061 10056
                                                                              11          Page 1 of 1




        An allegation was received that a proposal submitted to NSF' contained material copied from a
        paper2 in the same field. Comparison of the proposal with the alleged source document showed
        no overlap in text or figures. Examination of the proposal using plagiarism software revealed no
        overlap with text in any documents available on the web. There is no substance to the allegation.

        Accordingly, this case is closed.




            '   Redacted.
            *   Redacted.



                                  - -

NSF OIG F       O   2 ~(1 1/02)
